          .    ..                                 ~   .~-.-   -.   .                                     -.   .   .



                                    .   .
                                                                                                 I




                                              ,       OFFICE OF INVESTIGATIONS




        also stated that'two of the PI'S grants had the same names as two others and may have conitituted



        grants awarded to the PI. The Program Director advised that, in the time since forwarding the


        brother being employed by a subcontractor under the grants.




         ' Footnote redacted
           Fobtnote redacted
           Footnote redacted



NSF OIG Form 2,(11/02)                                                                               I
               I                                                                                     1
